APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 29, 2021) ......................... 1a
District Court of McIntosh County,
State of Oklahoma, Journal Entry of
Facts and Conclusions of Law (October 1, 2020) ... 10a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 14, 2020) .................................................... 13a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 29, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
DAVID DEVAL MARTIN,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2016-1030
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge.
OPINION
LUMPKIN, JUDGE:1
1 As stated in my separate writing in Bosse v. State, 2021 OK
CR 3, ___ P.3d ___, (Lumpkin, J., concurring in result), I am
bound by my oath and adherence to the Federal-State relationship
under the U.S. Constitution to apply the edict of the majority
opinion in McGirt v. Oklahoma, 140 S.Ct. 2452 (2020). However,
I continue to share the position of Chief Justice Roberts’ dissent
in McGirt, that at the time of Oklahoma Statehood in 1907, all

App.2a
Appellant David Deval Martin was tried by jury
and convicted of First Degree Murder (21 O.S. Supp.
2012, § 701.7), After Former Conviction of Two or More
Felonies, in the District Court of McIntosh County,
Case No. CF-2014-14. In accordance with the jury’s
recommendation the Honorable James D. Bland,
District Judge, sentenced Appellant to life in prison
without the possibility of parole. Appellant appeals
from this conviction and sentence.
In Proposition I, Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that he is a citizen of the Muscogee (Creek) Nation
and the crime occurred within the boundaries of the
Creek Nation.
Pursuant to McGirt v. Oklahoma, 140 S.Ct. 2452
(2020) Appellant’s claim raises two separate questions:
(a) his Indian status and (b) whether the crime occurred
in Indian Country. These issues require fact-finding.
We therefore remanded this case to the District
Court of McIntosh County for an evidentiary hearing.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we requested
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to his legal status as an
Indian and as to the location of the crime as Indian
Country, the burden shifts to the State to prove it
has subject matter jurisdiction. The District Court
was ordered to determine whether Appellant has some
Indian blood and is recognized as an Indian by a tribe
parties accepted the fact that Indian reservations in the state
had been disestablished and no longer existed.

App.3a
or the federal government. The District Court was
also directed to determine whether the crime occurred
in Indian Country. The District Court was directed
to follow the analysis set out in McGirt to determine:
(1) whether Congress established a reservation for the
Creek Nation; and (2) if so, whether Congress specifically erased those boundaries and disestablished the
reservation. In so doing, the District Court was directed
to consider any evidence the parties provided, including
but not limited to treaties, statutes, maps, and/or
testimony.
We also directed the District Court that in the
event the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties may enter into a written stipulation
setting forth those facts upon which they agree and
which answer the questions presented and provide
the stipulation to the District Court. The District
Court was also ordered to file written findings of fact
and conclusions of law with this Court.
An evidentiary hearing was timely held before
the Honorable Michael Hogan, District Judge, and an
order entitled Journal Entry of Facts and Conclusions
of Law in Accordance with Order Remanding for
Evidentiary Hearing was timely filed with this Court.
The record indicates that appearing before the District
Court were attorneys from the office of the Attorney
General of Oklahoma, the McIntosh County District
Attorney’s Office, and defense counsel.
In its Order, the District Court stated that
Appellant and the State of Oklahoma stipulated: 1)
the evidence would show that Appellant is “9/128
degree Indian blood of the Muscogee (Creek) Nation
Tribe” and that he is an “enrolled member of the

App.4a
Muscogee (Creek) Nation of Oklahoma on the dates of
the charged offenses”; and 2) “the Muscogee (Creek)
Nation of Oklahoma is an Indian Tribal Entity recognized by the federal government.” This was based on
documentation from the Muscogee (Creek) Nation
Citizenship Board and the Muscogee (Creek) Nation
Realty Office. The District Court accepted the stipulations and concluded that Appellant “had some Indian
blood” and is also “recognized as an Indian by a tribe
and the federal government”. For these reasons, the
court found Appellant “is an Indian under federal law.”
Regarding whether the crime occurred in Indian
country, the Order states that the parties stipulated
that “[the] charged crimes occurred within the Creek
Reservation”. The court stated that it adopted the
stipulation and found the crime occurred on the Creek
Reservation.
Both Appellant and the State were given the
opportunity to file response briefs addressing issues
from the evidentiary hearing. Appellant did not file a
response brief. The State filed a response brief acknowledging the District Court’s acceptance of the
stipulations regarding Appellant’s status as an Indian
and the location of the crime as occurring within the
Muscogee (Creek) Reservation. The State argued that
should this Court find Appellant is entitled to relief,
this Court should stay any order reversing the conviction for thirty (30) days to allow the United States
Attorney’s Office for the Eastern District of Oklahoma
to secure custody of Appellant. Cf. 22 O.S. 2011, § 846.
After thorough consideration of this proposition
and the entire record before us on appeal including
the original record, transcripts, and briefs of the
parties, we find that under the law and the evidence

App.5a
relief is warranted. Under the record before us, we
find the District Court did not abuse its discretion
and its findings are supported by the evidence
presented at the evidentiary hearing. See State v. Delso,
2013 OK CR 5, ¶ 5, 298 P.3d 1192, 1194. We find
Appellant has met his burden of establishing his status
as an Indian, having 9/128 degree Indian blood of the
Muscogee (Creek) Nation Tribe and is an enrolled
member of the Muscogee Creek Nation of Oklahoma
on the dates of the charged offense and that the
charged crime occurred within the Muscogee (Creek)
Reservation. Pursuant to McGirt, we find Congress
established a reservation for the Muscogee (Creek)
Nation and has not taken steps to disestablish that
reservation.
We therefore find that under McGirt, the State
of Oklahoma did not have jurisdiction to prosecute
Appellant in this matter. 2 The Judgments and
Sentences in this case are hereby reversed and the
case remanded to the District Court of McIntosh
County with instructions to dismiss the case.3

2 While Art. 7 of the Oklahoma Constitution vests the district

courts of Oklahoma with “unlimited original jurisdiction of all
justiciable matters,” the federal government has pre-empted the
field as it relates to major crimes committed by or against Indians
in Indian country.

3 This resolution renders the other seven (7) propositions of
error raised in Appellant’s brief moot.

App.6a
DECISION
The JUDGMENTS and SENTENCES are
REVERSED AND REMANDED with instructions
to Dismiss. The MANDATE is not to be issued until
twenty (20) days from the delivery and filing of this
decision.4
AN APPEAL FROM THE DISTRICT COURT OF
McINTOSH COUNTY THE HONORABLE
MICHAEL HOGAN, DISTRICT JUDGE
APPEARANCES IN DISTRICT COURT
Katrina Conrad-Legler
Okla. Indigent Defense
P.O. Box 926
Norman, OK 73070
Counsel for Defendant
Carol Iski
District Attorney
Greg Stidham
Asst. District Attorney
110 1st. Street
Eufaula, OK 74432

4 By withholding the issuance of the mandate for 20 days, the
State’s request for time to determine further prosecution is
rendered moot.

App.7a
Mike Hunter
Attorney General of Oklahoma
Joshua R. Fanelli
Hannah White
Asst. Attorneys General
313 N.E. 21st St.
Oklahoma City, OK 73105
Counsel for the State
APPEARANCES ON APPEAL
Katrina Conrad-Legler
Okla. Indigent Defense
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
Joshua R. Fanelli
Asst. Attorney General
313 N.E. 21st St.
Oklahoma City, OK 73105
Counsel for the State
Opinion by: Lumpkin, J.
Kuehn, P.J.: Concur in Results
Rowland, V.P.J.: Concur
Lewis, J.: Concur in Results
Hudson, J.: Specially Concur

App.8a
LEWIS, JUDGE,
CONCURRING IN RESULTS:
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ P.3d and Hogner v.
State, 2021 OK CR 4, ___ P.3d ___, I concur in results
in the decision to dismiss this case for the lack of state
jurisdiction.

App.9a
HUDSON, J., SPECIALLY CONCURS:
Today’s decision dismisses a conviction for first
degree murder from the District Court of McIntosh
County based on the Supreme Court’s decision in
McGirt v. Oklahoma, 140 S.Ct. 2452 (2020). This decision is unquestionably correct as a matter of stare
decisis based on the Indian status of Appellant and
the occurrence of the crimes on the Creek Reservation.
Under McGirt, the State has no jurisdiction to prosecute Appellant for the murder in this case. Instead,
Appellant must be prosecuted in federal court. I therefore as a matter of stare decisis fully concur in today’s
decision. Further, I maintain my previously expressed
views on the significance of McGirt, its far-reaching
impact on the criminal justice system in Oklahoma
and the need for a practical solution by Congress. See
Bosse v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson,
J., Concur in Results); Hogner v. State, 2021 OK CR
4, ___ P.3d ___ (Hudson, J., Specially Concurs); and
Krafft v. State, No. F-2018-340 (Okl. Cr., Feb. 25, 2021)
(Hudson, J., Specially Concurs) (unpublished).

App.10a
DISTRICT COURT OF McINTOSH COUNTY,
STATE OF OKLAHOMA, JOURNAL ENTRY OF
FACTS AND CONCLUSIONS OF LAW
(OCTOBER 1, 2020)
IN THE DISTRICT COURT OF
McINTOSH COUNTY, STATE OF OKLAHOMA
________________________
STATE OF OKLAHOMA,
Plaintiff,
v.
DAVID DEVAL MARTIN,
Defendant.
________________________
Case No. CF-2014-14
Court of Criminal Appeal Number F-2016-1030
Before: Michael HOGAN, District Judge.
JOURNAL ENTRY OF FACTS AND
CONCLUSIONS OF LAW IN ACCORDANCE
WITH ORDER REMANDING FOR
EVIDENTIARY HEARING ISSUED
AUGUST 21, 2020
Now on the 24th day of September, 2020, this case
comes on for evidentiary hearing for the purpose of
determining the following: (a) Defendant’s Indian
status and (b) whether the crimes occurred on the
Creek Reservation. The Defendant did not appear, but

App.11a
appeared through counsel, Katrina Conrad Ledger.
The State appears by and through McIntosh County
District Attorney, Carol Iski, and assistant district
attorney, Greg Stidham. The Oklahoma Attorney
General’s Office appears by and through counsel,
Joshua R. Fanelli.
After receiving argument and evidentiary stipulations the Court hereby FINDS and ORDERS as follows:
FINDINGS OF FACT AND
CONCLUSION OF LAW
The first issue for adjudication is the Defendant’s
status as an Indian as defined by federal law. The
Tenth Circuit’s decision in United States v. Dior, 679
F.3d 1183 (10th Cir. 2012) articulates the test for
making such determination. As Dias states:
To End that a person is an Indian the court
must first make factual findings that the
person has some Indian blood and, second,
that the person is recognized as an Indian
by a tribe or by the federal government.
Id. at 1187 (internal quotations omitted); see also
Goforth v. Stare, 1982 DK CR 48, 644 P.2d 114.
Applied to the present matter, the parties jointly
stipulate in writing the evidence will show “the
Defendant, David Martin is 9/128-degree Indian blood
of the Muscogee (Creek) Nation Tribe.” See Joint
Exhibit I (attached). In addition, “Defendant Martin
was an enrolled member of the Muscogee Creek
Nation of Oklahoma on the dates of the charged
offenses.” Id. Finally, “[t]he Muscogee (Creek) Nation
of Oklahoma is an Indian Tribal Entity recognized by
the federal government.” Id. The Court accepts and

App.12a
attaches these stipulations to the Court’s Findings of
Facts and Conclusions of Law. Applying the elements
of Diaz to the evidentiary stipulations in the present
matter, the Court finds the Defendant has “some
Indian blood” and is also “recognized as an Indian by
a tribe and the federal government.” For this reason,
the Court finds the Defendant is an Indian under
federal law.
Having found the Defendant is an Indian under
federal law, this Court must now determine if the
crime occurred on the Creek Reservation. As McGirt
v. Oklahoma, 140 S.Ct. 2452, 207 L.Ed.2d 985 (2020)
explains “[t]he 1813 Treaty fixed borders for what was
to be a ‘permanent home to the whole Creek nation
of Indians.’” Id. at 2461. The parties in this matter
stipulate “Nile charged crimes occurred within the
Creek Reservation.” For this reason, the Court adopts
the stipulation and rinds the crime occurred on the
Creek Reservation.
In accordance with the directives of the Oklahoma
Court of Criminal Appeals, the court reporter shall
file an original and two certified copies of the transcript
of this hearing within (20) days. This District Court
Clerk shall transmit the record of the evidentiary
hearing, this Journal Entry of Findings of Facts and
Conclusions of Law with attachments, and the transcript of this proceeding to the Clerk of the Court of
Criminal Appeals.
BE IT SO ORDERED
/s/ Michael Hogan
District Judge McIntosh County
State of Oklahoma

App.13a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 14, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
DAVID DEVAL MARTIN,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
No. F-2016-1030
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Scott ROWLAND, Judge,
Robert L. HUDSON, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Appellant David Deval Martin was tried by jury
and convicted of First Degree Murder (21 O.S. Supp.
2012, § 701.7), After Former Conviction of Two or
More Felonies, in the District Court of McIntosh
County, Case No. CF-2014-14. In accordance with the
jury’s recommendation the Honorable James D. Bland,

App.14a
District Judge, sentenced Appellant to life in prison
without the possibility of parole. Appellant appeals
from this conviction and sentence.
In Proposition I, Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that he is a citizen of the Muscogee (Creek) Nation
and the crime occurred within the boundaries of the
Creek Nation.
Pursuant to the recent decision in McGirt v. Oklahoma, No. 18-9526 (U.S. July 9, 2020), Appellant’s
claim raises two separate questions: (a) his Indian
status and (b) whether the crime occurred in the
Creek Nation. These issues require fact-finding. We
therefore REMAND this case to the District Court of
McIntosh County, for an evidentiary hearing to be held
within sixty (60) days from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to the Appellant’s legal status
as an Indian and as to the location of the crime in
Indian Country, the burden shifts to the State to prove
it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District

App.15a
Court. The District Court shall address only the
following issues.
First, the Appellant’s status as an Indian. The
District Court must determine whether (1) Appellant
has some Indian blood, and (2) is recognized as an
Indian by a tribe or the federal government.1
Second, whether the crime occurred within the
boundaries of the Creek Nation. In making this determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings
of fact and conclusions of law, and any other materials
made a part of the record, to the Clerk of this Court,
and counsel for Appellant, within five (5) days after
the District Court has filed its findings of fact and
conclusions of law. Upon receipt thereof, the Clerk of
this Court shall promptly deliver a copy of that record
to the Attorney General. A supplemental brief, addressing only those issues pertinent to the evidentiary
hearing and limited to twenty (20) pages in length,
may be filed by either party within twenty (20) days
after the District Court’s written findings of fact and
conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116. See
also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).

App.16a
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of McIntosh County:
Appellant’s Brief in Chief filed October 4, 2017; and
Appellee’s Response Brief, filed February 1, 2018.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 14th day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

